260
IN THE
SUPREME COURT OF THE UNITED STATES

FILED
JUL ' 7 2019

8SESff<35$i«3E

CANDICE LUE,
Petitioner,
v.
JPMORGAN CHASE & CO., a Delaware Corporation; ALEX KHAVIN, an individual;
FIDELIA SHILLINGFORD, an individual; JOHN VEGA, an individual; HELEN
DUBOWY, an individual; PHILIPPE QUIX, an individual; THOMAS POZ, an
individual; CHRIS LIASIS, an individual; MICHELLE SULLIVAN, an individual,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

CANDICE LUE
Pro Se Petitioner
4122 Bel Vista Court
Lodi, NJ 07644
(973) 340-1231
info@candicelue .com

QUESTIONS PRESENTED
1
Title VII of the Civil Rights Act of 1964 prohibits employers from depriving employees
of employment opportunities by limiting, segregating, or classifying them on the basis
of race (See 42 U.S.C. § 2000e-2(a)) and gives an employee the right to be free from
retaliation for the individual’s opposition to discrimination or the individual’s
participation in an EEOC proceeding by filing a charge (See 42 U.S.C. § 2000e-3(a)).

Under 42 U.S.C. § 1981 - All persons within the jurisdiction of the United States shall
have the same right in every State and Territory to the full and equal benefit of all
laws and proceedings for the security of persons and property as is enjoyed by white
citizens, and shall be subject to like punishment, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other.
The questions presented are:
Do Title VII of the Civil Rights Act of 1964 and 42 U.S.C. § 1981 protect a Black
employee from retaliation for taking a stance against being stereotypically and
disparately treated as the “help/house slave” for the non-Black team members of
JPMorgan Chase & Co.’s Asset Management Counterparty Risk Group and for filing a
charge reporting the said discrimination and retaliation to the EEOC?

Were my rights violated by JPMorgan Chase & Co., et al when as the only Black
analyst in the Asset Management Counterparty Risk Group, I was switched to a low
performing, subpar Black employee who had never managed anyone before to be my

i

manager, restricted of and/or denied privileges such as the company’s work from home
benefit, the enjoyment of being occasionally freed from doing “less desirable work” and
the benefit of sponsorship and financial assistance with the Chartered Financial
Analyst (CFA) exams that the non-Black analysts and/or associates of the group had
access to/enjoyed?
2

The Fifth and Fourteenth Amendment Rights to Procedural Due Process provide that
no person shall be deprived of life, liberty, or property without due process of law and
that the judge must protect the (Party’s] due-process rights by ensuring the [Party]
understands every phase of the proceedings.
The question presented is:
Did the District Court abuse its discretion in granting Defendants’ JPMorgan Chase &
Co., et al’s August 1, 2017 Letter Motion to arbitrarily strike my issued Subpoena and
all my Oppositions/Responses (including my Affidavits and Exhibits) to their Motion
for Summary Judgment to dismiss my Employment Racial Discrimination and
Retaliation lawsuit against them with prejudice without a valid and/or legal
explanation and without convening a hearing for me to argue against the said motion?
3

Under 18 U.S.C. § 1621 - Whoever in any declaration, certificate, verification, or
statement under penalty of perjury as permitted under section 1746 of title 28, United
States Code, willfully subscribes as true any material matter which he does not believe

to be true is guilty of perjury and shall, except as otherwise expressly provided by law,
be fined under this title or imprisoned not more than five years, or both.
The question presented is:
Did six (6) of the eight (8) Defendants/Declarants for whom overwhelming proof was
provided that they lied in their 28 U.S. Code §1746 Declarations commit the crime of
perjury?
4
Under 18 U.S.C. § 1505 - Whoever, with intent to avoid, evade, prevent, or obstruct
compliance, in whole or in part, with any civil investigative demand duly and properly
made under the Antitrust Civil Process Act, willfully withholds, misrepresents,
removes from any place, conceals, covers up, destroys, mutilates, alters, or by other
means falsifies any documentary material, answers to written interrogatories, or oral
testimony, which is the subject of such demand; or attempts to do so or solicits another
to do so shall be fined under this title/imprisoned not more than 5 years
The question presented is:
Did JPMorgan Chase obstruct justice by using three of its 28 U.S. Code §1746
Defendants/Declarants to lie on their behalf under penalty of perjury?

iii

PARTIES TO THE PROCEEDING
I, Petitioner, Candice Lue, was the Plaintiff in the District Court and the
Appellant in the Court of Appeals.
Respondents, JPMorgan Chase & Co., a Delaware Corporation; Alex Khavin, an
individual; Fidelia Shillingford, an individual; John Vega, an individual; Helen
Dubowy, an individual; Philippe Quix, an individual; Thomas Poz, an individual; Chris
Liasis, an individual; Michelle Sullivan, an individual, were the Defendants in the
District Court and the Appellees in the Court of Appeals.

iv

TABLE OF CONTENTS
I. Table of Authorities

vn, vm, ix

II. Opinions/Summary Orders Below

1

III. Jurisdiction

1

IV. Relevant Statutory Provisions

1

V. Statement

1 - 13

VI. Reasons For Granting The Petition..........

13

I. Defendants JPMorgan Chase & Co., et al
should not be allowed to get away with
blatantly violating 42 U.S.C. § 2000e-2(a)
and 42 U.S.C. § 2000e-3(a) of Title VII of
the Civil Rights Act of 1964, 42 U.S.C. §
1981 and their crimes of Perjury and
Obstruction of Justice................................

13 -15

II. The Second Circuit Court of Appeals is
wrong in its Decision that the District Court
did not abuse its discretion in granting
JPMorgan Chase & Co., et al’s August 1, 2017
Letter Motion to arbitrarily strike my issued
Subpoena and all my Oppositions/Responses
(including my Affidavits and Exhibits) to their
Motion for Summary Judgment to dismiss my
Employment Racial Discrimination and
Retaliation lawsuit against them with prejudice
without a valid and/or legal explanation and
without convening a hearing for me to argue
against the said Motion........................................

16-29

III. This lawsuit could set a long overdue precedent
to eradicate Employment Racial Discrimination
and unlawful Retaliation once and for all...........

30-31

VII. Conclusion

31

Appendix A
Summary Order and Judgment - United States Court of Appeals
for the Second Circuit (April 24, 2019).............................................
v

la - 8a

Appendix B
Motion Order - Denying Motion to Stay Mandate Pending the
Filing of a Petition for a Writ of Certiorari with the
U. S. Supreme Court (May 28, 2019)...........................................

9a - 10a

Appendix C
Judgment Mandate (May 28, 2019)

11a- 18a

Appendix D
Statutory and Regulatory Provisions

19a - 20a

vi

TABLE OF AUTHORITIES
Cases
Abansa v. JPMorean Chase & Co., et al
Civil Action No. 18-cv-04060..................

7

Alfredo B Pay ares v. Chase Bank USA. NA.. &
J.P. Morgan Chase & Co., et al (class action)
Civil Action No. 2:07-cv-05540...........................

6

Bursos v. Hopkins.
14 F.3d 787, 790 (2d Cir, 1994)

11, 14, 20

City of Newport v. Fact Concerts. Inc..
453 U.S. 247, 270 (1981)......................

30

Graham v. Lewinski.
848 F. 2d 342, 344 (2d Cir. 1988)

14

Haines v. Kerner.
404 U.S. 519, 520 (1971)

14

Hishmark Inc, v. All-care Health Msmt. Svs.. Inc..
134 S. Ct. 1744, 1748 n.2 (2014)

13

Jose Fisueroa-Coello v. United States of America.
(5th Cir, 2019).........................................................

10

Litekv V. United States.
510 U.S. 540, 555 (1994)

12

Olanivi v. Alex Cab Co..
239 Fed.Appx. 698, 699 (3d Cir. 2007)

29

Rowlett v. Anheuser-Busch.
832 F.2d at 207 (1st Cir. 1987)

30

Senesal. et al. v. JPMorean Chase Bank, N.A.
Civil Action No. 18-cv-6006..............................
United States v. Texas.
457 F.3d at 481 (5th Cir. 2006)

7

13

vii

United States of America u. JPMorean Chase Bank. NA
Civil Action No.: l:17-cv-00347

6

Vance v. Ball State University.
133 S. Ct. 2434 (2013).............

7

Statutes and Constitutional Provisions
18 U.S.C.
18 U.S.C. § 4......

...................... 10, 25

18 U.S.C. § 1505.

.....iii, 10, 15, 22, 25

18 U.S.C. § 1621

ii, 10, 15, 22, 25, 27

18 U.S.C. § 1622

22

28 U.S.C.
28 U.S.C. § 1254(1)

1

28 U.S.C. §1746.....

n, in

42 U.S.C.
42 U.S.C. § 1981

i, v, 2, 13, 15, 18, 22, 31

Title VII of the Civil Rights Act of 1964,
42 U.S.C. §§ 2000e to 2000e-17:
42 U.S.C. § 2000e-2(a).....................

i, v, 1, 13

42 U.S.C. § 2000e-3(a).....................

i, v, 2, 13

Fifth and Fourteenth Amendments
- Procedural Due Process........

ii, 9, 13, 17, 24, 26
Rules

Federal Rules of Appellate Procedure
Rule 10(b)(2).................................................

10, 12, 27, 29

Rule 30(a)(2).................................................

13

Federal Rules of Civil Procedure
Rule 56(d)............................................

21, 27

viii

Local Civil Rules
Rule 25.1(h)(4)......

23

Miscellaneous
EEOC Compliance Manual Section 15:
Race and Color Discrimination:
VII(B)(1)- Work Assignments...............

5,6

Other Rules
Clean Hands Doctrine Rule of Law

25

IX

PETITION FOR WRIT OF CERTIORARI
I, pro se Petitioner, Candice Lue respectfully petition for a Writ of Certiorari to
review the judgment of the United States Court of Appeals for the Second Circuit in
this case.
OPINIONS/SUMMARY ORDERS BELOW
Second Circuit Court of Appeals April 24, 2019 Summary Order (Pet. App.A la
- 8a). Second Circuit Court of Appeals’ Order of May 28, 2019 denying Motion to Stay
Mandate Pending Filing of a Petition for a Writ of Certiorari (Pet. App.B 9a - 10a).
Second Circuit Court of Appeals’ May 28, 2019 Judgment Mandate (Pet. App.C 11a 18a).
JURISDICTION
The Summary Order of the Second Circuit was entered on April 24, 2019. A
timely motion to stay mandate pending my filing of a Petition for a Writ of Certiorari
was denied on May 28, 2019. The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY AND REGULATORY PROVISIONS
The pertinent parts of the relevant statutory and regulatory provisions appear
in the appendix. App.D 19a.
STATEMENT
1. Title VII of the Civil Rights Act of 1964 prohibits employers from depriving
employees of employment opportunities by limiting, segregating, or classifying them
on the basis of race (See 42 U.S.C. § 2000e-2(a)) and gives an employee the right to be
free from retaliation for the individual’s opposition to discrimination or the
1

individual’s participation in an EEOC proceeding by filing a charge (See 42 U.S.C. §
2000e-3(a)).
a. Under 42 U.S.C. § 1981 - All persons within the jurisdiction of the United States
shall have the same right in every State and Territory to the full and equal benefit of
all laws and proceedings for the security of persons and property as is enjoyed by
white citizens, and shall be subject to like punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and to no other.

Alex Khavin’s (“Khavin”), an Executive Director and Head of the Counterparty
Risk Group for Global Investment Management at JPMorgan Chase & Co., who is
White and who was my skip level manager, first act of disparate treatment against me
is consistent with unlawful segregation (my Eighth Cause of Action - “Unlawful
Segregation on the Basis of Race in Violation of Title VII of the Civil Rights Act of
1964 and 42 U.S.C. § 1981” - Amended Complaint).
After five interviews with six members of JPMorgan Chase’s Asset Management
Counterparty Risk Group, on November 5, 2014, it was decided that I, the Black
candidate, was the one chosen for the Credit Reporting Risk Analyst position.
Executive Director, Khavin then switched my manager (evidence provided in Exhibit
O - JPMorgan Chase 000221) from being the White manager, Kimberly Dauber who
all the non-Black analysts and associates (including my three non-Black predecessors)
reported to, to a Black, subpar employee (per Khavin’s own performance assessment of
her), Defendant Fidelia Shillingford (“Shillingford”) who no one had ever reported to
and who was willing to engage in horizontal racism against me to secure her,

2

Shillingford’s own career at JPMorgan Chase1 by allowing herself to be used by
Khavin as a cover and a conduit to extend her, Khavin’s racial bigotry against Blacks
against me.
Khavin switching my manager from being Kimberly Dauber, who she, Khavin
did not need to put on a Development Plan and as of 2014 year end was not on
JPMorgan Chase’s list of “low performers”, to Shillingford who, based on Khavin’s own
2014 year end performance review and performance rating was a “low performer” who
needed to be placed on a Development Plan as a “Course of Action” (evidence provided
as Exhibit FF), was not only unlawful segregation but it was an act of disparate
treatment against me considering that the education, experience and skills
requirements for me to have landed the job as the Credit Reporting Risk Analyst, as
per the job description, were identical to those of my three non-Black predecessors who
Khavin obviously thought Shillingford was not good enough for them to report to.
As the only Black Analyst in the Counterparty Risk Group, in addition to
always having to work late (as is the norm with the Credit Reporting Risk Analyst
position), Khavin ordered me to work an additional minimum of two (2) hours later
(could be up to 11:00 PM) to do 13 copies of the printing, collating, stapling, etc. of
each of the other group members’ (including members who were on my job level)
presentation materials for the group’s 8:00 AM Monthly Governance Meeting.

1 Having gotten a “Low Meets Expectation (M-)” rating from Khavin on her 2014 year end performance
review (Exhibit FF), Shillingford’s career at JPMorgan Chase was at the mercy of Khavin and HR so in
her quest to secure her career/future at JPMorgan Chase, Shillingford who is Black was willing to
relegate herself to horizontal racist status in order to carry out Khavin’s racial bigotry against me.
Shillingford was also used by JPMorgan Chase to he under penalty of penury in her Declaration in
Support of the Defendants’ Motion for Summary Judgment.

3

As Khavin tried to rationalize in her perjurious Declaration in support of the
Defendants’ Motion for Summary Judgment, she solely assigned the aforesaid racially
stereotypically and discriminatory tasks to me because the said members in the group,
who were all non-Black (except for my direct manager, Shillingford), consistently
failed to have their presentation materials ready for the said 8:00 AM meeting to start
on time. The meeting starts at 8:00 AM and instead of having the printing, etc. of
their presentation materials done the night before to distribute in the said meeting,
they would wait until the morning of the meeting, sometimes coming in at 7:55 AM
and rushing to put their materials together delaying the meeting for 20 minutes or
more. This being so frustrating to Khavin, as the only Black analyst to have joined the
group, as if I were the new “help/house slave”, to “rectify this matter” Khavin unfairly
assigned me to do the printing, etc. of all these non-Black, lax employees’ presentation
materials - Bearing in mind that another non-Black analyst had joined the group just
one week before I did.
I myself had up to three (3) presentations to prepare for the said meeting (more
than any of the other members) yet in addition to these three, I was ordered by Khavin
to work a minimum of two (2) hours later than usual (when everyone else has left for
the day2) to prepare everyone else’s presentation materials which, their presentation
materials had nothing to do with my position as a Credit Reporting Risk Analyst (my
Black manager, Shillingford and I were on the Reporting side of the group and the

2 For more than half of the month my average time to leave work was 8:00 to 8:30 pm (a few times after
9:00 pm) and for the rest of the time, there was a possibility, not a guarantee, that I would get to leave
between 6:00 and 6:30 pm (extremely rare for 6:00 pm) when the average time for the whole month for
the non-Black analysts and associates to leave work was between 5:00 and 5:30 pm with a 6:00 pm late
evening. Am. Compl. U 14

4

other members who were all non-Black were on the Credit Analysis side of the said
group).
Khavin ordering me to print, etc. 13 copies of each member of the group’s
presentation materials was only a benefit/perk for the non-Black members of the team
who were lax in having their presentation materials ready for the monthly 8:00 AM
meeting, at the expense of me, the only Black analyst on the team3 - A benefit/perk,
that like a help/house slave, I would have never gotten the opportunity to enjoy since
as the only Black analyst on the team, these were solely my tasks to do.
In conjunction, Khavin solely assigned me the task of taking the minutes for the
said monthly governance meetings, a task which was so undesirable that Khavin
made it rotational among all the non-Black analysts and associates before I joined the
team4 as I was informed during my interview for the position and per Kimberly
Dauber’s email dated February 4, 2015s.
The aforesaid tasks were not even assigned to the White administrative
assistant on the team even though these are tasks that would more likely fall into the
“administrative assistant” job category.

As a matter of fact, the said White

administrative assistant was not even as much as assigned the task to print the
meeting agenda she prepared and sent out via email to the team for the said monthly
team meeting but, along with all the presentation materials Khavin discriminatively
3 The equivalent of a White/non-Black family historically getting a Black Help to do their family’s
undesirable chores - Bearing in mind that I was an Exempt employee like the other non-Black
employees.
4 In contravention of EEOC Compliance Manual Section 15 - Race and Color Discrimination - VII(B)(1)
- Work Assignments.
5 Kimberly Dauber’s email stated: “Every analyst and/or associate on this team has been the minute
taker of our extended meetings at some time during the last 2 years [prior to me joining the team], I
don’t think this is a function that is specifically written out in job duties because it’s an adhoc function.
However, Alex [Khavin] would pick a different person each time during our meetings....”

5

assigned me to print for the non-Black members of the team, the task of printing a
copy of the governance meeting agenda for each of the said non-Black members of the
team was also assigned to me, an analyst, to do. (EEOC Compliance Manual Section
15 - Race and Color Discrimination - VII(B)(1) - Work Assignments states: “Work
assignments must be distributed in a nondiscriminatory manner. This means that race
cannot be a factor in determining the amount of work a person receives, or in
determining who gets the more, or less, desirable assignments”.
In addition, reminiscent of the devious ways in which Black voters were treated
to frustrate them and to prevent them from using their voting privilege before the
1965 Voting Rights Act was passed, unlike the non-Black analysts in the Counterparty
Risk Group who could use the company’s work from home privilege by just sending an
email to the team saying something like, “I am not feeling too well today so I will be
working from home”, Khavin’s directive through Shillingford for me was that I had to
send an email to Shillingford detailing my situation and ask for permission to work
from home (permission which would have to come from Khavin herself) and she,
Shillingford would communicate accordingly to the team. In other words, unlike the
non-Black analysts on my job level who could just send the email to the team (as
JPMorgan Chase internal emails I provided in my almost 500 pages of evidence show),
I, Black analyst, Candice Lue, would be passing my place to do so.
There is an undisputed culture of Employment Racial Discrimination and
Retaliation at JPMorgan Chase as evidenced in my lawsuit and in the lawsuits:
United States of America v. JPMorgan Chase Bank, NA (17-cv-00347), Alfredo B
Payares v. Chase Bank USA, NA., & J.P. Morgan Chase & Co et al (2:07-cv-05540),
6

Senegal, et al. v. JPMorgan Chase Bank, N.A. (18-cv-6006) and Abanga v. JPMorgan
Chase & Co., et al (18-cv-04060) that JPMorgan Chase has been able to get away with
because of their influence and wealth - taking note that the two latter lawsuits are for
Employment Racial Discrimination and were filed after I filed my said lawsuit against
the company.
This culture was also evidenced during my tenure in my capacity as an Energy
Confirmations Drafting Analyst in JPMorgan Chase’s Investment Banking Global
Commodities Confirmations Department (“Confirmations Department”) whereby my
career was consistently and intentionally regressed and stagnated by my skip level
manager, Defendant Chris Liasis (“Liasis”) and my direct manager, Michelle Sullivan
(“Sullivan”) who are both White.
It never mattered what I did to exceed my work expectation as I explicitly
outlined in my Sixth Cause of Action in my Amended Complaint and in my Responses
to Sullivan’s and Liasis’ perjurious Declarations in support of the Defendants’ Motion
for Summary Judgment, my efforts and contributions to process improvements, etc. in
the Confirmations Department were always quelled. In addition, towards the end of
my tenure, my regular duties were taken away from me and I was assigned duties
that were regressive to my career by both managers6 in an effort to intentionally
stagnate and regress my career at JPMorgan Chase7.

6 Vance v. Ball State University, 133 S. Ct. 2434 (2013)
7 The reassignment of my duties which pretty much left me “counting pencils” was not necessary as,
within seven months, the Physical Commodities section in which I worked would have been sold by
JPMorgan Chase and my position would have been eliminated. But, in an effort to put blight on my
marketability by indirectly forcing me to update my resume with tasks that would be regressive to my
financial career, Liasis and his co-conspirator, Sullivan reassigned my duties and I was relegated to
spending most of my day calling clients to ask them if they had received issued trade confirmations and
when can we expect a returned signed copy.

7

With all my efforts going above and beyond my call of duty, Liasis and Sullivan
never gave me a performance rating above “Meets Expectation (M)”. And, to even be
considered for a promotion, a JPMorgan Chase employee needs to have at least a
“Meets Expectation Plus (M+)” performance rating” - Bearing in mind that I was a
high achiever during my high school and college matriculation8 and my high quality of
work as a consultant with JPMorgan Chase prior to becoming an employee was
recognized by my then manager and JPMorgan Chase’s clients and initially in my first
four months as a JPMorgan Chase employee, by Sullivan herself.
With that said, there is comparative evidence to prove that while Liasis and
Sullivan were intentionally regressing and stagnating my financial career at
JPMorgan Chase, within the two years of Liasis being my skip level manager, I had
seen where he promoted a White female employee who worked in the Marketing
Middle Office Group9 from an Analyst to a Senior Analyst to an Associate/Manager
then to a Vice President/Manager. And, with all due respect, I have yet to hear about
any process improvement or any other substantial or significant contribution,
comparable to what I did, that this White employee had made to the Marketing Middle
Office Group (Am. Compl. t 162).
In light of the aforesaid, as outlined in Paragraphs 2, 15, 137 and 138 of my
Amended Complaint, I took all the measures necessary to openly mitigate the
damages that the Defendants caused me, but to no avail. I continuously raised the
issue of racial discrimination against me both verbally and via email to the
8 I graduated 3rd from a high school that was more than 99.5% White (4.0 GPA, New Jersey Governor
Scholar, Gates Millennium Scholar, etc.) and graduated Summa Cum Laude, etc. from college.
9 This group for which Liasis was the direct manager worked very closely with the Confirmations
Department.

8

Defendants and/or employees in positions to rectify this unlawful matter but it was
never rectified but only ignored, aided, abetted, enforced, shooed away, dismissed
and/or ridiculed by these said Defendants and/or employees.

Instead, due to my

continued peaceful opposition to being discriminatorily treated as the “help/house
slave” for the non-Black members of the Counterparty Risk Group, I was retaliated
against by way of a pretextual performance review and placed on a fallacious
“performance improvement plan” followed by a written warning and ultimately my
termination on January 6, 2016. The written warning and my termination occurred
after I filed a Charge of Employment Racial Discrimination and Retaliation against
JPMorgan Chase & Co. with the EEOC (JPMorgan Chase saw me as a “firmwide risk”
- evidence provided in my motion to stay mandate which was denied on May 28, 2019).

2. The Fifth and Fourteenth Amendment Rights to procedural due process provide
that no person shall be deprived of life, liberty, or property without due process of law
and that the judge must protect the [Party’s] due-process rights by ensuring the
[Party] understands every phase of the proceedings.

The District Court abused its discretion in granting Defendants’ JPMorgan
Chase & Co., et al’s August 1, 2017 Letter Motion to arbitrarily strike my issued
Subpoena and all my Oppositions/Responses (including eight (8) Affidavits and
almost 500 pages of evidence) to their Motion for Summary Judgment to dismiss
my Employment Racial Discrimination and Retaliation lawsuit against them with
prejudice without a valid and/or legal explanation and without convening a hearing for

9

me to argue against the said motion.

See Jose Figueroa-Coello v. United States of

America, (5th Cir, 2019).
District judge, Judge Alison J. Nathan also completely ignored my reports (via
Motions/Responses I filed with the Court), pursuant to 18 U.S.C. § 4, of the
overwhelming evidence that six (6) out of the eight (8) Defendants/Declarants lied
under Penalty of Perjury in their Declarations in Support of their Motion for Summary
Judgment, a crime pursuant to 18 U.S.C. § 1621 and that JPMorgan Chase
obstructed justice by using my Black manager, Defendant Fidelia Shillingford, one
of my White predecessors, Declarant Baruch Horowitz and a White manager,
Declarant Kimberly Dauber to lie on their behalf under Penalty of Perjury, a crime
pursuant to 18 U.S.C. § 150510.
In addition, to uphold her August 11, 2017 Ruhng granting the Defendants’
August 1, 2017 Letter Motion in which they cited noncompliance of non-existent page
limits rules and lied to the Court11 to have my Subpoena stricken, when I provided
evidence of her erroneous Ruling in my August 12, 2017 Motion (District Court Docket
“DCD” # 121), instead of Judge Nathan mooting her Ruling granting the Defendants’
August 1, 2017 Letter Motion to arbitrardy strike all my Oppositions/Responses from
the District Court’s docket, Judge Alison J. Nathan ignored my argument and proof
with regards to my Subpoena, prejudicially updated her “Special Rides of Practice in

10 Proof that these Declarants lied under penalty of perjury is among the almost 500 pages of evidence
that Judge Alison J. Nathan struck from the district court’s docket when she granted the Defendants’
August 1, 2017 Letter Motion. I resubmitted all the stricken documents to the Appeals Court pursuant
to Rule 10(B)(2) of the Federal Rules of Appellate Procedure (docket #s 10 and 11). However, please note
that as I pointed out in my Appellant Brief, the entry of my resubmission on the Appeals Court’s docket,
as it relates to the number of pages, is not consistent with the almost 1000 pages of all the documents I
resubmitted.
11 Proof which Judge Nathan ignored was provided to the Court.
10

Civil Pro Se Cases” to add “page limits” and nefariously backdated the “Revised” date
of her said Individual Practices to August 10, 2017, which is ten (10) days after I
submitted my said Oppositions/Responses and one day prior to her August 11, 2017
Ruling whereby she granted the Defendants’ Letter Motion - Bearing in mind that no
court ruling is decided on a “future Rule of Law”. The Rule of Law would have to be in
effect for a court ruling to be made based on it.
In conjunction, in the Second Circuit Court of Appeals’ April 18, 2019 hearing,
none of the three presiding judges, Judge Richard C. Wesley, Judge Denny Chin and
Judge Lewis A. Kaplan asked me any questions about the arguments in my Appellant
Brief or about any of the disputed and debunked lies in the Defendants’ Appellees’
Brief even though Judge Denny Chin “assured me” that they had read my “papers
already” when I was only allowed to read less than two of my four and less than a
quarter page, double-spaced prepared statement.
Yet, in the said judges’ Summary Order of April 24, 201912 (Pet. App.A la - 8a),
they referenced the said Defendants’/Declarants’ disputed and debunked lies13 Meaning that if my documents were read liberally pursuant to Burgos v. Hopkins, 14
F.3d 787, 790 (2d Cir, 1994) - (“[A pro se plaintiffs] pleadings must be read liberally
and interpreted to “raise the strongest arguments that they suggest”), the three judges
could not have come up with the arguments they came up with in their said Summary
Order of April 24, 2019.

12 Received on May 4, 2019. Ten (10) days after the Ruling.
13 The majority of these lies were debunked via proof from the thousands of JPMorgan Chase’s internal
emails/documents voluntarily produced during discovery. I took the time to go through all of these
emails/documents.

11

Notably missing from the said Summary Order is any mention of my Subpoena
that was stricken from the District Court’s docket at the behest of the Defendants via
their August 1, 2017 Letter Motion which, without addressing me or allowing me to
argue against it, District Court judge, Judge Alison J. Nathan granted14.
In addition, the said presiding judges refused to acknowledge the documents I
resubmitted to the Appeals Court which are most relevant to my Appeal pursuant to
Rule

10(B)(2) of the Federal Rules of Appellate Procedure which states:

“Unsupported Finding or Conclusion. “If the appellant intends to urge on appeal
that a finding or conclusion is unsupported by the evidence or is contrary to the
evidence, the appellant must include in the record a transcript of all evidence relevant
to that finding or conclusion” but chose instead to use the Defendants’ argument Summary Order - page 2, footnote # 1 (Pet. App.A 2a) stated as: “Lue does not
reference her state tort claims, hostile work environment claim, or her “aiding and
abetting” claim and “failure to take steps to prevent” claim, except to the extent that she
refers this Court to arguments in documents outside her appellant brief. Hence we
deem these claims abandoned”
The documents I resubmitted to the Appeals Court pursuant to Rule 10(B)(2) of
the Federal Rules of Appellate Procedure (Appeals Court docket “ACD” #s 10 and 11)
are not “documents outside her appellant brief, they are the documents I need “to urge
on appeal that a finding or conclusion is unsupported by the evidence or is contrary to
the evidence”. In conjunction, Second Circuit Local Rules - The Appendix states: “The
14 This omission in conjunction with refusing to acknowledge the documents I resubmitted pursuant to
FRAP Rule 10(B)(2) “display a deep-seated favoritism or antagonism that would make fair judgment
impossible” - Liteky v. United States, 510 U.S. 540, 555 (1994).

12

omission of part of the record from the appendix will not preclude the parties or the
Court from relying on such parts since the record is available to the Court if
needed” and Federal Rules of Appellate Procedure 30(a)(2) - Excluded Material
states: “Parts of the record may be relied on by the court or the parties even though not
included in the appendix.”
Furthermore, my Appeal was based on the fact that in clear violation of the
Fifth and Fourteenth Amendment Rights to Procedural Due Process afforded me
under the U.S. Constitution, the District Court judge, Judge Alison J. Nathan
prejudicially, nefariously and arbitrarily struck these said documents from the District
Court’s docket — “Imposition of an “overbroad remedy” is also “an abuse of discretion” United States v. Texas, 457 F.3d at 481 (5th Cir. 2006) and, “A district court would
necessarily abuse its discretion if it based its ruling on an erroneous view of the law or
on a clearly erroneous assessment of the evidence [including ignoring the evidence of
the crimes of Perjury and Obstruction of Justice]” Highmark Inc. v. All-care Health
Mgmt. Sys., Inc., 134 S. Ct. 1744, 1748 n.2 (2014).

REASONS FOR GRANTING THE WRIT
I. Defendants JPMorgan Chase & Co., et al should not be allowed to get away with
blatantly violating 42 U.S.C. § 2000e-2(a) and 42 U.S.C. § 2000e-3(a) of Title VII of
the Civil Rights Act of 1964, 42 U.S.C. § 1981 and their crimes of Perjury and
Obstruction of Justice.
a. In his August 1, 2017 Letter Motion to District Court judge, Judge Alison J.
Nathan requesting that the Court strikes all of my Oppositions/Responses

13

including my eight (8) Affidavits and my almost 500 pages of pertinent evidence to
the Defendants’ criminal and perjurious Motion for Summary Judgment from
the District Court’s docket, in contravention of Graham u. Lewinski [848 F. 2d 342,
344 (2d Cir. 1988)], Haines v. Kerner [404 U.S. 519, 520 (1971)] and Burgos v.
Hopkins [14 F.3d 787, 790 (2d Cir, 1994), Defendants JPMorgan Chase & Co., et
al’s attorney, Anshel Kaplan stated, “Defendants and this Court should not be
burdened with reviewing and responding to these excessive and non-compliant
filings”.
Even though he made this transgressive request, in his said Letter Motion to
Judge Nathan, he provided solid references from my said Oppositions/Responses to
support why his motion should be granted.

In addition, in the Defendants’

Appellees’ Brief, Mr. Kaplan critiqued the style of the Arguments in my said
Oppositions/Responses to JPMorgan Chase & Co., et al’s Motion for Summary
Judgment. This would mean to anyone of reasonable mind, that the Defendants’
attorney had read, reviewed and possesses full knowledge of the Arguments and
Evidence that I presented in my Oppositions/Responses to the said Defendants’
Motion for Summary Judgment to dismiss my Employment Racial Discrimination
and Retaliation lawsuit against them with prejudice.
With that said, seeing that the Arguments and accompanying Evidence are
wholly stacked against his clients, to save them from their obvious and
overwhelming state of guilt, Mr. Kaplan had to come up with a frivolous
technicality as in “Plaintiff, Candice Lue is not in compliance with Judge Alison J.
Nathan’s page limit rules” which, for a pro se litigant was non-existent in Judge
14

Nathan’s “Special Rules of Practice in Civil Pro Se Cases” prior to me submitting
my said Oppositions/Responses to the Court and/or at the time Mr. Kaplan
submitted his said Letter Motion.
My Oppositions/Responses to the nine (9) Defendants’ Motion for Summary
Judgment to dismiss my lawsuit against them with prejudice (less than 1000 pages
which include eight (8) affidavits and almost 500 pages of evidence which Judge
Alison J. Nathan arbitrarily struck from the District Court’s docket) made it as
clear as day that my Civil and Constitutional Rights under the afore-stated
Sections of Title VII of the Civil Rights Act of 1964 and 42 U.S.C. § 1981 were
violated by Defendants, JPMorgan Chase & Co., et al, that my Claims of
Employment Racial Discrimination and Retaliation against the said Defendants
are valid and that six (6) of the eight (8) Defendants/Declarants lied under penalty
of perjury, crimes pursuant to 18 USC §§ 1621 and 1505. And as such, JPMorgan
Chase & Co., et al should not be allowed to evade the justice system.

b. Due to JPMorgan Chase & Co.’s financial power (to write a check not enough for
them to care) and influence, it is way too easy for the company to unlawfully
retaliate against a poor, Black employee who has the gall to take a stance against
Employment Racial Discrimination and Retaliation - This power and influence also
include JPMorgan Chase & Co. using another Black employee to lie on their behalf.
Granting the Writ would send a clear message to the company that it is not above
the law.

15

II. The Second Circuit Court of Appeals is wrong in its Decision that the District Court
did not abuse its discretion in granting Defendants’ JPMorgan Chase & Co., et al’s
August 1, 2017 Letter Motion to arbitrarily strike my issued Subpoena and all my
Oppositions/Responses (including eight (8) Affidavits and almost 500 pages of
evidence) to their Motion for Summary Judgment to dismiss my Employment Racial
Discrimination and Retaliation lawsuit against them with prejudice without a valid
and/or legal explanation and without convening a hearing for me to argue against
the said motion.

The Second Circuit Court of Appeals decision affirming the District Court’s
Memorandum and Opinion of March 27, 2018 as stated in their Summary Order of
April 24, 2019 (Pet. App.A la - 8a) is wrong as outlined below:
The Summary Order page 3 (Pet. App.A 3a) states that: “Lue argues that the
district court abused its discretion in striking her opposition to summary judgment,
imposing page limits on any new submission, and ultimately deeming defendants’
summary judgment motion unopposed.”
However, as articulated in “2” of “STATEMENT” above, this statement is a
mere circumvention of my argument to cover Judge Nathan’s unethical behavior.
The Summary Order page 3 (Pet. App.A 3a) states that: “Lue submitted a
lengthy opposition that was out of proportion to the defendants’ motion including a
198-page memorandum of law in response to the defendants’ 25pages”.
However, what this statement fails to state is that 1) my “198-page
memorandum of law in response” was a combined single-document in response to nine

16

(9) individual Defendants, 2) that Judge Nathan did not provide instructions in her
May 11, 2017 Ruling (DCD # 101) and 3) that as a pro se plaintiff, per Judge Nathan’s
“Special Rules of Practice in Civil Pro Se Cases”, I was not allowed oral argument
unless she grants it which she did not.
Also, as in examples provided in my Appellant Appendix (Appellant Appendix
Table of Contents “AATOC” # 20 - Examples of Other Judges’ Instructions in ThenOrders that Involve Multiple Parties), any learned judge would know that it cannot be
reasonable and/or logical that the same 25-page limit allowed to respond to one (1)
defendant would be adequate to respond to nine (9) individual Defendants each of
whom has specific and different Causes of Action against them and each of whom is
motioning that the said specific and different Causes of Action against them be
dismissed with prejudice as that would be in clear violation of my Fifth and
Fourteenth Amendment Rights to Procedural Due Process.
Furthermore, as the Plaintiff and as is customary in a Memorandum of Law in
Opposition, it is incumbent upon me to provide a summary of argument as to why each
of the nine (9) individual Defendants I named in my lawsuit is a proper defendant. As
my said Memorandum of Law in Opposition shows, my nine (9) “Summary of
Arguments” consisted of 31 pages - meaning that there is no way that 25 pages
(especially without the allowance of oral argument) would be near adequate to respond
to nine (9) individual Defendants each of whom has specific and different Causes of
Action against them and each of whom is motioning that the said specific and different
Causes of Action against them be dismissed with prejudice. In conjunction, as I stated
in my Appellant Brief:
17

“unlike the multi-billion dollar, counseled Defendants who could write a
statement such as the one they wrote on page 21 of their Memorandum of Law in
Support of their Motion for Summary Judgment (DCD #91) which states:
“Plaintiff claims that Vega, Dubowy, and Poz “aided and abetted” violations of
Title VII and 42 U.S.C. § 1981 because they disagreed with her assessment
that she was the victim of discrimination” without any further argument or
evidence (because everything the Defendants say is Gospel for Judge Alison J.
Nathan), there is no way in my disadvantaged position as a poor, Black, pro se
Plaintiff that I could have written such a blanketed two-line opposition/response
with regards to ALL three (3) Defendants.
As articulated in pages 167-178 of my Opposition to the Defendants’
Memorandum of Law in Support of their Motion for Summary Judgment [ACD
#s 10 and 11], I had to individually prove that each of the three (3) Defendants,
John Vega, Helen Dubowy and Thomas Poz aided and abetted the Employment
Racial Discrimination and Retaliation that was perpetrated against me in
violation of Title VII of the Civil Rights Act of 1964 and 42 U.S.C. § 1981
Bearing in mind that the specifics of the “Aiding and Abetting” charge I have
against Defendant John Vega is different from that of Defendant Helen Dubowy
and different from that of Defendant Thomas Poz and vice versa.”
The Summary Order page 4 (Pet. App.A 4a) states that: “Although Lue argues
that the court’s page limits would have prevented her from presenting “ninety percent”
of her arguments, she made no attempt to comply with the district court’s instructions

18

and has not shown that she could not adequately oppose summary judgment within the
courts limit.”
However, page 35 of my Appellant Brief clearly states:
“it is important to note that via my “Response to Judge Alison J. Nathan’s Order
of December 4, 2017” - (DCD # 136), I requested to redo my 198-page single­
document Memorandum of Law in Opposition to all nine (9) Defendants’
Memorandum of Law in Support of their Motion for Summary Judgment to
dismiss my lawsuit with prejudice by individually resubmitting my said
Opposition to each of the nine (9) Defendants’ arguments in accordance with the
“25-page limit” Judge Alison J. Nathan implemented after I submitted my said
198-page single-document Opposition to all nine (9) Defendants’ Memorandum
of Law in support of their Motion for Summary Judgment and after I submitted
my Response to her August 11, 2017 Order. However, my Request was ignored
by Judge Alison J. Nathan (see pages 4 - 6 of my ‘Response to Judge Alison J.
Nathan’s Order of December 4, 2017” - DCD # 136)’.
And, as it relates to “and has not shown that she could not adequately oppose
summary judgment within the courts limit”, no one of reasonable mind including a
learned, honest or fair judge would think that it would be reasonable and/or logical
that the same page limit allowed to respond to one (1) defendant would be adequate to
respond to nine (9) individual Defendants each of whom has specific and different
Causes of Action against them and each of whom is motioning that the said specific
and different Causes of Action against them be dismissed with prejudice.

19

The Summary Order page 4 (Pet. App.A 4a) states that: “the district court struck
her filings as “overly burdensome” and not for failure to comply with these rules” (such
intellectual dishonesty).
However, this is contrary to the Defendants’ August 1, 2017 Letter Motion
(DCD #113) which Judge Alison J. Nathan granted on August 11, 2017 which clearly
states the following:
1) “We have received Plaintiffs papers in opposition to Defendants’ motion for
summary judgment (“Motion”), and write to respectfully request that the Court direct
Plaintiff to revise and re-submit those papers, since they are in violation of Your
Honor’s Individual Practices in Civil Cases (“Practices”) and the Local Civil
Rules of this Court”.
2) “Plaintiffs memorandum of law is also non-compliant. Section 3(B) of the
Practices [not for pro se/eligible for one defendant/plaintiff] provides.... ”
3) “With respect to Plaintiffs response to the 56.1 statement, section 3(G)(iv) of
the Practices [not for pro se/eligible for one defendant/plaintiff] provides...”
4) “Defendants and this Court should not be burdened with reviewing and
responding to these excessive and non-compliant filings15 [“non-compliant filings” as
in “failure to comply with [Judge Alison J. Nathan’s non-existent pro se litigants
page limits] rules” and;
15 “[A pro se plaintiffs] pleadings must be read liberally and interpreted to raise the strongest
arguments that they suggest” Burgos v. Hopkins, 14 F.3d 787, 790 (2d Cir, 1994) - Bearing in mind that
per Judge Alison J. Nathan’s “Special Rules of Practice in Civil Pro Se Cases” (AATOC. #11), these
rules were non-existent prior to me submitting my Oppositions/Responses to the District Court (July
31, 2017) and at the time the Defendants submitted their Letter Motion (August 1, 2017).

20

5) “Defendants respectfully request that the Court strike Plaintiffs responsive
papers to and direct her to re-file papers in accordance with Your Honor’s
Practices and the Local Civil Rules”.
Judge Alison J. Nathan’s August 11, 2017 Ruling:
“ORDER granting 113 Letter Motion for Conference [obviously “conference”
was just window dressing as no “conference” was requested in the Defendants’
Letter Motion and Judge Nathan did not convene one].... The Court hereby
strikes Plaintiff's submissions in opposition to summary judgment at Dkt. Nos.
106-112, 114-118 as overly burdensome. Plaintiff shall revise and resubmit her
papers in opposition to Defendants' motion for summary judgment by August 25,
2017. Plaintiffs revised submissions shall comport with the Court's
Individual Practices in Civil Cases Rule 3.B. and 3.G.”16
With that said, anyone of reasonable mind can see that the afore-stated
Summary Order page 4 statement is intellectually dishonest.
The truth is, the only thing “overly burdensome” about my “filings”
(Oppositions/Responses) to the Defendants’ criminal and perjurious Motion for
Summary Judgment is the arguments and corroborating evidence wholly stacked
against them. In conjunction, if the Defendants can produce the documents/proofs of
their arguments that I requested in my Affidavits via my Federal Rules of Civil
Procedure 56(d) Requests and honor the Subpoena I duly served upon their attorneys
on August 7, 2017, that would result in an automatic exoneration of the Employment
16 In bold at the top of the Court’s said Individual Practices states: “Unless otherwise ordered by Judge
Nathan, these Individual Practices apply to all civil matters EXCEPT FOR CIVIL PRO SE CASES
(see Rules for Pro Se Cases)”. In her May 11, 2017 Order (DCD # 101), Judge Nathan did not give such
order.

21

Racial Discrimination, Retaliation and additional Penury and Obstruction of Justice
charges I brought against them, but they cannot.
It is ironic that both the District and Appeals Courts have no problem granting
a major, international law firm (with possibly hundreds of support staff) Motion to
arbitrarily strike my Subpoena and all my Oppositions/Responses to the nine (9)
Defendants’ they represent Motion for Summary Judgment as being “overly
burdensome” for them to read and reply to (even though, as stated earlier, it is obvious
that they have read, reviewed and possess full knowledge of the Arguments and
Evidence that I presented in my said Oppositions/Responses) but the said Courts
denied my Motion asking for leniency due to inhumane and financial burden
(“Addendum to Response to Judge Alison J. Nathan's Order of August 11, 20IT’
AATOC #15).
This is not about “overly burdensome” to read and reply to. It is because my
arguments and corroborating evidence make it as clear as day that my Civil and
Constitutional Rights under Title VII of the Civil Rights Act of 1964 and 42 U.S.C. §
1981 were violated by Defendants, JPMorgan Chase & Co., et al, that my Claims of
Employment Racial Discrimination and Retaliation against the said Defendants are
valid and that six (6) of the eight (8) Defendants/Declarants and their attorneys lied
under Penalty of Perjury which are crimes pursuant to 18 U.S.C. §§ 1621 and 1622
and that JPMorgan Chase obstructed justice by using Defendant/Declarant Fidelia
Shillingford, Declarant Baruch Horowitz and Declarant Kimberly Dauber to lie on
their behalf under Penalty of Perjury, a crime pursuant to 18 U.S.C. § 1505.

22

The Summary Order page 4 (Pet. App.A 4a) states that: “and the record reflects
that Lue was served with defendants’ motion to strike” which I was not17. With that
said, I provided with my “Motion to Stay Mandate Pending Filing of a Petition for a
Writ of Certiorari” which the Appeals Court denied on May 28, 2019 (Pet. App.B 9a 10a), a compilation of email correspondence between myself and the Defendants’
attorney, Anshel Kaplan showing a pattern of not being served/properly served with
the Defendants’ pleadings. In addition, I provided proof of a April 22, 2019 telephone
conversation with the then case manager, J.W, in which my advisor questioned him as
to why it is that I was charged with “defective filing’ for not submitting a certificate of
service for what I thought was a mere administrative issue (ACD #s 43 and 44) yet the
Defendants were not treated the same way for not providing a certificate of
service/serving me with a completed copy of their April 18, 2019 “Notice of Hearing
Date” acknowledgement form in accordance with Local Rule 25.1(h)(4) which states:
Service: Paper Copies: “Service of a paper copy of a document is not required unless
the recipient is not a Filing User and has not consented to other service”. J.Ws
response was (and I paraphrase), “because it was not necessary for them to serve you
with the said document”. In other words, Local Rule 25.1(h)(4) does not apply to the
Defendants.

17 In contravention of Judge Alison J. Nathan’s “Special Rules of Practice in Civil Pro Se Cases - Filing
of Papers # 3” which states: “Counsel in pro se cases shall serve a pro se party with a paper copy of any
document that is filed electronically and file with the Court a separate Affidavit of Service. Submissions
filed without proof of service that the pro se party was served with a paper copy will not be
considered’, to date, July 2019, I have not received a paper copy of the Defendants’ said August 1,
2017 Letter Motion and, the false Affidavit of Service the attorney filed, was filed with the Court on
August 15, 2017 which was after my first report to Judge Alison J. Nathan of not receiving a paper
copy of the Letter Motion, two weeks after the said Letter Motion was filed and after Judge Nathan’s
August 11, 2017 Ruling.

23

The Summary Order page 4 (Pet. App.A 4a) states that: “Lue failed to file an
opposition in compliance with the court’s orders despite eight extensions of time to
comply and five warnings of the consequence of continued noncompliance”.
However, there is no mention of the fact that in response to those said
“extensions and warnings”, I continued to ask Judge Alison J. Nathan, pursuant to my
Fifth and Fourteenth Amendment Rights to Procedural Due Process, which states:
“the judge must protect the [Party’s] due-process rights by ensuring the [Party]
understands every phase of the proceedings”, that she provide me with a valid and/or
legal explanation as to why she arbitrarily struck from the district court’s docket my
issued

Subpoena,

my

eight

(8)

Affidavits

in

Opposition/Response

to

the

Defendants’/Declarants’ eight (8) Declarations, six (6) of which are criminal and
perjurious, and my almost 500 pages of evidence when as per the Rule of Law,
affidavits and evidence are not subjected to page limits and in some cases the
Defendants’ Declarations that I was responding to had more pages than my
Affidavits18.
With that said, I could not have heeded Judge Nathan’s “warnings” without her
providing me with such explanation as doing so could have caused me additional
inhumane,

financial and irreparable harm/burden as striking my previous

18 See my Responses to Judge Alison J. Nathan’s Orders of: August 21, 2017 (DCD #126), October 31,
2017 (AATOC. #16 / DCD #129), November 20, 2017 (AATOC. #17 / DCD #132) and December 4, 2017
(AATOC. #19 / DCD #136). Also, my argument was never that “the district court [imposed] page limits
on affidavits or other evidence" (pg. 4 of Summary Order - (Pet. App.A 4a)), it was as I stated over and
over, that I needed a valid and/or legal explanation (outside of page limits) as to why Judge Nathan
arbitrarily struck my Affidavits and Evidence from the district court’s docket when (because) Affidavits
and Evidence are not subjected to page limits.

24

submissions from the District Court’s docket did (“Addendum to Response to Judge
Alison J. Nathan's Order of August 11, 201T - AATOC #15).
In conjunction, in response to those said “extensions and warnings”, as I did in
my Affidavits, I repeatedly informed Judge Nathan, pursuant to 18 U.S.C. § 4 that the
Defendants’ said Declarations are criminal and perjurious so pursuant to 18 U.S.C. §§
1621 and 1505 and the “Clean Hands Doctrine Rule of Law” a ruling should not have
been made in this case until the charges of criminality were addressed as a fair Court
Ruling cannot be based on criminal and perjurious documents as Judge Alison J.
Nathan’s Memorandum and Opinion of March 27, 2018 does.
The Summary Order page 4, footnote # 3 (Pet. App.A 4a) states that: “Lue
claims judicial bias because the district court struck her opposition, referred the case to
mediation, and declined to enter default judgment in her favor.

She also asserts,

incorrectly, that the district court misquoted her in an order”
However, as pages 50 - 51 of my Appellant Brief and AATOC # 21 show, this
statement is mere circumvention of my arguments in order to cover Judge Nathan’s
unethical, egregious and unbecoming behavior in her capacity as the presiding District
Court judge. For example, as it relates to “referred the case to mediation, and declined
to enter default judgment in her favor”, this is what I stated on page 50 of my
Appellant Brief:
“I was first alerted to the bias I became accustomed to from Judge Alison J.
Nathan when in contravention of the Southern District of New York’s
Mediation/ADR Program - Counseled Employment Discrimination Cases - 2015
Second Amended Standing Admin Order - (M10-468), she pawned off my
25

lawsuit to Mediation 23 days after the Summons and Complaint were served
upon the Defendants WITHOUT the Defendants even filing a Notice of
Appearance much less an Answer (DCD # 4) - Bearing in mind that after 21
days of no Answer from the Defendants, a default judgment in my favor should
have been rendered.”
The Summary Order page 6 (Pet. App.A 6a) states that: “the district court
afforded “additional care” [how ironic is it that this is in quotations] to Lue’s position
because of her status as a pro se litigant”.
However, “additional care” would be responding to my requests for clarity
pursuant to my Fifth and Fourteenth Amendment Rights to Procedural Due Process,
which states: “the judge must protect the [Party’s] due-process rights by ensuring the
[Party] understands every phase of the proceedings” as articulated in my Responses to
Judge Nathan’s Orders of: August 21, 2017 (DCD #126), October 31, 2017 (AATOC #16
/ DCD #129), November 20, 2017 (AATOC #17 / DCD #132) and December 4, 2017
(AATOC #19 / DCD #136).
The Summary Order page 6 (Pet. App.A 6a) states that: “the district court relied
only on defendants’ factual assertions that were independently supported by evidence in
the record’.
However, no “evidence in the record’ was presented to support, for example,
“The Baruch Horowitz Lie” and to debunk my argument and overwhelming
corroborating evidence that my manager was switched to a Black, sub-par employee Defendant Fidelia Shillingford who none of my three non-Black predecessors reported
to, after it was determined that I, the Black candidate was chosen for the reporting

26

analyst position (Amended Complaint - Eighth and Ninth Causes of Action, Exhibit O
and Exhibit FF) besides the criminal and perjurious Declarations submitted by
Defendants/Declarants Baruch Horowitz, Alex Khavin, Kimberly Dauber and Fidelia
Shillingford.
The Summary Order page 6 (Pet. App.A 6a) states that: “the district court did
not, as Lue contends, improperly rely on her supervisor’s race to conclude that Lue had
not experienced discrimination”.
However and to the contrary, it was the Defendants’ and Judge Nathan’s
contention that there was no discrimination because my supervisor who is Black is the
one who “hired and fired’ me, which is a lie to its core as proofs from Exhibits CC-1,
CC-2 and O which are among the almost 500 pages of evidence that Judge Alison J.
Nathan struck from the District Court’s docket when she granted the Defendants’
August 1, 2017 Letter Motion but was resubmitted to the Appeals Court pursuant to
Rule 10(B)(2) of the Federal Rules of Appellate Procedure (ACD #s 10 and 11) show.
The Summary Order pages 6-7 (Pet. App.A 6a - 7a) states that: “Indeed, the
district court also considered that hue’s White predecessor [who must be charged with
perjury pursuant to 18 U.S.C. § 1621] received the same assignments as Lue and was
subjected to the same requirements to work from home...”
It was these said lies (“The Baruch Horowitz Lie[s]”)19 that prompted me to
subpoena JPMorgan Chase & Co. for Baruch Horowitz’s personnel and performance
records and to make the following Federal Rules of Civil Procedure 56(d) Requests:

19 I respectfully refer the Court to my Response to the Defendants’ Undisputed Material Fact # 18 and
my Affidavit in Opposition/Response to Baruch Horowitz’s Declaration (ACD #s 10 and 11).

27

> Provide at least one (1) year of consecutive emails showing Baruch Horowitz
sending out the minutes for the Counterparty Risk Group’s monthly meetings to
all the members of the said group. And;
> Produce any email correspondence such as the ones I have provided in Exhibit
K20 to prove that, just like me, Plaintiff, Candice Lue, who is Black, the first of
my three predecessors, Baruch Horowitz, who is White, was exclusively
assigned and/or performed the task of the taking of the minutes for the
Counterparty Risk Group’s monthly team meetings and the tasks of the
printing, organizing, sorting, collating, stapling, emailing of presentation
materials of each of the team members of the said Counterparty Risk Group
(When there is a White Administrative Assistant on the team who was never
assigned these tasks) and the lugging of copies of the said presentation
materials to the group’s monthly meetings where the non-Black members of the
team21 would be, reminiscent of the days of slavery/“back in the day”, waiting to
“be served”.
The Summary Order page 7 (Pet. App.A 7a) states that:11 Lue failed to show that
a genuine issue of material fact existed with respect to her retaliation claim”.
However, as I noted in my Appellant Brief, such “material fact”/evidence as it
relates to “retaliation” was a part of my almost 500 pages of evidence in the form of
Exhibits which were arbitrarily stricken from the District Court’s docket by Judge
Alison J. Nathan when she granted the Defendants’ August 1, 2017 Letter Motion but

20 Exhibit K is among the afore-referenced almost 500 pages of evidence.
21 Including the ones on my job level.

28

was resubmitted to the Appeals Court pursuant to Rule 10(B)(2) of the Federal Rules
of Appellate Procedure (ACD #s 10 and 11).
With that said, I provided with my “Motion to Stay Mandate Pending Filing of a
Petition for a Writ of Certiorari” copies of three emails from Exhibits CC-1 and CC-2
from the 89 pages of “Proof of Retaliation” (Exhibits CC - CC-3) representing “a
genuine issue of material fact existed with respect to her [Lue’s] retaliation claim”.
The Summary Order page 8 (Pet. App.A 8a) states that: “We have considered all
of Lue’s remaining arguments and find them to be without merit.”
Would that include my “arguments” of Perjury and Obstruction of Justice? If so,
on April 18, 2019, why when the Defendants’ attorney had more than two minutes of
his allotted five minute oral argument left didn’t Judge Richard C. Wesley, Judge
Denny Chin and/or Judge Lewis A. Kaplan question him about my repetitious and
emphasized criminal charges of Perjury and Obstruction of Justice against JPMorgan
Chase & Co., et al?

And, if these judges had acknowledged the documents I

resubmitted to the Appeals Court which are most relevant to my Appeal pursuant to
Rule 10(B)(2) of the Federal Rules of Appellate Procedure, would they have come up
with this conclusion?
Contrary to the wholly erroneous Rulings of the District and Appeals Courts, “a
pro se complaint should only be dismissed if it appears “beyond a doubt that the
plaintiff can prove no set of facts in support of [their] claim.” Olaniyi v. Alex Cab Co.,
239 Fed. Appx. 698, 699 (3d Cir. 2007) (citing McDowell v. Delaware State Police, 88
F.3d 188, 189 (3d Cir. 1996)). In conjunction, a Court Ruling cannot and should not be
based on criminal and perjurious documents.
29

III. This lawsuit could set a long overdue precedent to eradicate Employment Racial
Discrimination and unlawful Retaliation once and for all.

As a human being who had to endure the humiliation of being unapologetically,
condescendingly and unrepentantly treated as a second class citizen/“the help/house
slave” just for being Black, I have a vested interest in making sure that the illegal and
despicable acts of Employment Racial Discrimination and unlawful Retaliation in
corporate America is eradicated once and for all. I want to set a long overdue
monetary precedent whereby the amount will not only raise concern but it will also be
a deterrent for the said illegal and despicable acts.
Major corporations such as the multi-billion dollar Defendant, JPMorgan Chase
& Co., and its managers that commit such illegal and despicable acts should be
punished sufficiently enough by hitting them where it hurts most and that would be in
their coffers22.
After 55 years (since 1964), this monetary precedent will be integral in ensuring
that no other employee endures being discriminated against simply because of his/her
race or endures being retaliated against simply for having the gall to speak up against
blatant Employment Racial Discrimination.
In conjunction, I want to make sure that Black employees no longer feel that
they have to relegate themselves to being horizontal racists or to being a cover and/or

22 City of Newport v. Fact Concerts, Inc., 453 U.S. 247, 270 (1981) ("evidence of a tortfeasor's wealth is
traditionally admissible as a measure of the amount of punitive damages that should be awarded");
Rowlett v. Anheuser-Busch, 832 F.2d at 207 (1st Cir. 1987). ("a rich defendant may well be required to
pay more than a poor one who committed the same wrong"). The award should be considered in the
context of the respondent's monetary resources.

30

a conduit for the employment racial discrimination perpetrated by the corporation
they work for in order to secure their job and/or to grow their career with the company,
as Defendant Fidelia Shillingford did. In other words, Title VII of the Civil Rights Act
of 1964 in concurrence with 42 U.S.C. § 1981 must work.

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully Submitted.

CANDICE LUE
Pro Se Petitioner
4122 Bel Vista Court
Lodi, NJ 07644
(973) 340-1231
info@candicelue.com
July 2019

31

